<html>
<title> - RESUMPTION OF THE JULY 16, 2014 FULL COMMITTEE HEARING, ``WHITE HOUSE OFFICE OF POLITICAL AFFAIRS: IS SUPPORTING CANDIDATES AND CAMPAIGN FUNDRAISING AN APPROPRIATE USE OF A GOVERNMENT OFFICE?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
 RESUMPTION OF THE JULY 16, 2014 FULL COMMITTEE HEARING, ``WHITE HOUSE 
  OFFICE OF POLITICAL AFFAIRS: IS SUPPORTING CANDIDATES AND CAMPAIGN 
         FUNDRAISING AN APPROPRIATE USE OF A GOVERNMENT OFFICE?

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 25, 2014

                               __________

                           Serial No. 113-125

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
89-594                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0463746b44677177706c6168742a676b692a">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        Vacancy
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 25, 2014....................................     1

                                APPENDIX

Correspondence between the Committee and the White House.........    10


 RESUMPTION OF THE JULY 16, 2014 FULL COMMITTEE HEARING, ``WHITE HOUSE 
  OFFICE OF POLITICAL AFFAIRS: IS SUPPORTING CANDIDATES AND CAMPAIGN 
        FUNDRAISING AN APPROPRIATE USE OF A GOVERNMENT OFFICE?''

                              ----------                              


                         Friday, July 25, 2014

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 9:09 a.m., in Room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
[chairman of the committee] presiding.
    Present: Representatives Issa, Meadows, Cummings, Maloney, 
Norton, Tierney, Clay, Lynch, Cartwright, Duckworth, Kelly, 
Welch, Cardenas, and Horsford.
    Staff Present: Alexa Armstrong, Legislative Assistant; 
Melissa Beaumont, Assistant Clerk; Molly Boyl, Deputy General 
Counsel and Parliamentarian; Ashley H. Callen, Deputy Chief 
Counsel for Investigations; Steve Castor, General Counsel; John 
Cuarderes, Deputy Staff Director; Lamar Echols, Counsel; Adam 
P. Fromm, Director of Member Services and Committee Operations; 
Linda Good, Chief Clerk; Caroline Ingram, Counsel; Mark D. 
Marin, Deputy Staff Director for Oversight; Ashok M. Pinto, 
Chief Counsel, Investigations; Andrew Rezendes, Counsel; Laura 
L. Rush, Deputy Chief Clerk; Jessica Seale, Digital Director; 
Andrew Shult, Deputy Digital Director; Jonathan J. Skladany, 
Deputy General Counsel; Rebecca Watkins, Communications 
Director; Krista Boyd, Minority Deputy Director of Legislation/
Counsel; Marianna Boyd, Minority Counsel; Jennifer Hoffman, 
Minority Communications Director; Julia Krieger, Minority New 
Media Press Secretary; Elisa LaNier, Minority Director of 
Operations; Dave Rapallo, Minority Staff Director; and Michael 
Wilkins, Minority Staff Assistant.
    Chairman Issa. Committee will come to order.
    We are here to continue a hearing that began July 16th, 
2014, called ``White House Office of Political Affairs: Is 
Supporting Candidates and Campaign Fundraising an Appropriate 
Use of a Government Office?'' The purpose of the hearing is to 
gather facts about the White House Office of Political and 
Strategic Outreach.
    I would like to note for the record Mr. David Simas, 
director of the Office of Political Strategy and Outreach and 
assistant to the President, is in fact not present at the 
hearing today. Mr. Simas was invited to testify to give 
committee members and the American people an opportunity to 
hear from the head of an office that has, under several 
previous administrations, misused government resources for 
political purposes.
    Despite being under subpoena, Mr. Simas failed to appear at 
the hearing on July 16th. I gave him a second chance to appear 
today to fulfill his obligation under a lawful subpoena.
    At this time, I would like to place in the record the 
correspondence between the committee and the White House 
regarding this matter.
    The White House has informed my staff for the first time 
this morning at 7:30 a.m. that Mr. Simas would not be present 
at today's hearing. We continue to work with the White House 
staff on proposed ways to resolve this. However, today's 
failure to appear is noted for the record and is not excused.
    Mr. Cummings, do you have any remarks?
    Mr. Cummings. Mr. Chairman, I just have a brief statement.
    Chairman Issa. The gentleman is recognized.
    Mr. Cummings. And just one question. I just wanted to 
highlight the letter, the last correspondence that we just put 
in the record, for the members to--I want to draw their 
attention to it and aware--it is very brief. It is only three 
or four sentences. I received your--this is to the chairman 
dated July 24, 2014: I received your letter of today's date a 
little after 7:00 p.m. this evening. This is yesterday. My 
staff has reached out to yours to discuss these issues in good 
faith. I trust that they will report back to us on their 
progress. In light of this, it would be helpful if you would 
withdraw the subpoena to Mr. Simas as we discuss whether we can 
reach an appropriate accommodation. Sincerely, W. Neil 
Eggleston, Counsel to the President.
    The end part of this is very brief, Mr. Chairman. Mr. 
Chairman, before we proceed any further, I just want to make 
sure, confirm what we talked about already, that we understand 
that we are doing--what we are doing this morning so our 
members will be clear. You resumed this hearing this morning 
even though we knew Mr. Simas was not coming. And earlier this 
morning, your staff told special counsel, Carolyn Lerner, not 
to come to the hearing today, and so we won't have her 
testimony.
    My understanding is that you plan to move next to the 
business meeting to consider your resolution on Mr. Simas. And 
is that correct?
    Chairman Issa. At this time, based on his non-attendance, 
yes.
    Mr. Cummings. And just to be clear, I have a statement I 
would like give. And I am happy to wait until the business 
meeting to give it, but I want to make sure that I will have 
that opportunity, and you told me that I would.
    Chairman Issa. That is correct. Although if you'd like to 
give it now, you may.
    Mr. Cummings. No. I will wait till the business meeting.
    Chairman Issa. Okay.
    Mr. Cummings. Thank you.
    Chairman Issa. Thank you very much.
    Mr. Cummings, just in brief response, as you know, we have 
an inherent obligation of oversight. The question before us 
today is a very straightforward question: Are we doing 
oversight? Is it our right and our obligation to do oversight? 
I believe it is. There is a long precedent that when this 
committee asks for someone appropriately, and they are not made 
available, and we believe, the chair believes we need that 
person--and in the case of an office of only four people, the 
head is not a big ask--to be the most appropriate, that we 
expect that person to come.
    The record will show that we have negotiated and attempted 
alternatives, including discussions about possible transcribed 
interviews and other nonpublic ways to get the same 
information. However, the subpoena is, in my opinion, 
inappropriate to lift, because ultimately, lifting the subpoena 
implies and would mean that he may not come. It is the 
considered opinion of this committee chair that we have an 
absolute right and obligation to investigate, not any 
wrongdoing, no predicate or claim of wrongdoing--however, this 
is an office that has a past, that past, under both Republicans 
and Democrats, have been questioned, and there has been an odd 
situation of saying it was wrong, but keeping it for 3 years; 
shutting it down and then reconstituting it much smaller.
    And as you and I spoke, and if you don't mind, something 
that we said in private, the question that came from the 
briefing, which I was appreciative that the White House did 
give us, was that this office controls only the President and 
the First Lady, and it does not control the members of the 
Cabinet.
    As the earlier proceeding made clear, we have an obligation 
to look at all government officials, whether covered by the 
Hatch Act or not, and find out whether or not they are doing 
political activity with government money and government time 
unless explicitly exempted. It is the considered opinion at 
this time of the committee and Ms. Lerner, the counsel, that 
the four people whose purpose it is to schedule the president 
and the First Lady, who are exempt from the Hatch Act, is in 
fact potentially a necessary office. Because this office was 
closed by this President as wrong and, if you will, 
unnecessary, operated for 3 years, without finding out if those 
four individuals are necessary and how their use of our 
taxpayer dollars are being used, is a question.
    And when we reconvene, and probably a second hearing after 
Mr. Simas appears at the first hearing, will be to ask the 
second question: If this office controls only the President and 
First Lady, and there are hundreds of potential Cabinet and 
sub-Cabinet officers who then are controlled to go to places 
where they meet, participate either overtly in political 
activities or are scheduled to be in districts of Senators 
and--or States of Senators and districts of House Members at 
times when it might be beneficial to their campaign, so 
literally fundraising or, less literally, support of 
candidates' reelection, who is scheduling them? How are they 
scheduling them?
    This was intended to be a short, and I hope it still will 
be, oversight of a relatively small but, in the past, 
controversial office consistent with our requirement to do 
oversight even without a predicate of wrongdoing. I do want to 
make sure the committee understands on both sides of the aisle 
that we were going to ask the question as to the President and 
First Lady, and we believe we will get satisfactory answers. We 
then must move on to the Cabinet. And, as you know, under this 
President, not uniquely, it happens with other past Presidents, 
we have had two Cabinet officers who did in fact commit Hatch 
Act violations. That tells us that we have a control 
responsibility with a predicate, an inherent predicate, for 
making sure that the organizational systems for Cabinet 
officers and the like is covered. I claim no predicate for the 
office of the President. I claim oversight, and I believe you 
would support me in that principle.
    I think we do have a predicate in the case of the Cabinet, 
but we have no ongoing wrongdoing accusation about the cabinet. 
We simply have a history under Presidents of both parties that 
this has been an area of concern and past violations.
    So this has been communicated back and forth with the White 
House. They understand this is not alleging a scandal at any 
level, but in fact doing the oversight that we are pledged to 
do and that cannot be done by the executive branch, can only be 
done by our branch. So I look forward to your remarks when we 
open for the business meeting. I take it very serious that we 
are going to likely find that--that the committee believes Mr. 
Simas has a responsibility to be here and find that, once 
again, we are going to insist that he respond to the subpoena 
either in its original form or, if we can reach a mutually 
agreeable accommodation, that accommodation.
    Mr. Cummings. Will the gentleman yield?
    Chairman Issa. Of course.
    Mr. Cummings. First of all, Mr. Chairman, I thank you for 
what you just said, and what you said is accurate as to what 
our discussions have been. I want to make that very clear.
    With regard to--I want to--so that the public and the 
committee will be clear, so there are no--and I realize that 
you are not saying that there needs to be, but you are saying 
that, if I understand it, to your knowledge, Mr. Simas has done 
nothing wrong and his office has done nothing wrong.
    Chairman Issa. We are accusing neither the President nor 
this four-person office of any wrongdoing. There is a past 
history that you and I are both aware of that caused an opinion 
that it needed to be closed and the closing of the office. And 
so inherently when an office is closed, one might say in 
scandal, and that is a multi-Presidential scandal, and then 
reopened, it is probably inherently the most important 
oversight we can do and say, in the past, this didn't work 
properly. How do we know it will work properly going forward?
    I believe the American people have an obligation--or we 
have an obligation to make sure that we spend the money well 
and that the American people have a comfort level, but again, 
you are exactly right, Mr. Cummings: I allege no ongoing 
wrongdoing, but it is more appropriate when you have a history 
like this to look at it than the average four-person office in 
the White House.
    Mr. Cummings. And there were two Cabinet members that you 
mentioned. And, of course, we would agree that those offenses, 
Hatch Act offenses, took place long before this incident, the 
opening of this office.
    Chairman Issa. That is correct, although I believe one of 
them likely took place before the closing of its previous 
office, but--and as you and I talked about in the White House 
briefing, they told us they are not controlling through this 
office the activities of members of the Cabinet, which actually 
raises the concern that I think you and I are going to have to 
mutually work on is, if not this office, then who do we look to 
to make sure that these inherent calls from a party office, 
currently the Democratic party, but it could become the 
Republican party at some day in the future, who allows those, 
who coordinates them, who spends the government dime when that 
call comes in scheduling or talking about why the Secretary of 
blank should go support the Congressman of what?
    Mr. Cummings. And would the gentleman yield?
    Chairman Issa. Of course.
    Mr. Cummings. So as I hear you, bringing in Mr. Simas in 
one respect is sort of trying to create a preventive, do 
something to prevent something that could possibly happen in 
the future based upon what happened under previous 
administrations. Is that what you are trying to say?
    Chairman Issa. Not only that, but I think in a sense, and I 
hope we all look to this as we look at this office and the 
others, if Congress looks at a system and says, we see nothing 
wrong with the system, and then the system is faithfully 
executed and something bad happens, then it is not a scandal; 
it is a need for further reform.
    And I will give a current example. We voted, we broadly 
voted in 2008 for a law on immigration that now is at the 
center of some problems, and we as a government are looking to 
fix something, but it wasn't--it isn't a scandal that people 
are taking advantage of a 2008 law, and the American people, I 
think, currently understand the immigration question; it is 
simply something we looked at, we voted for and now we see 
that.
    If we look into these various activities and we see nothing 
wrong in the system that is explained to us and in what we are 
told is happening, then, in fact, in a sense, we add to the 
ease with which the administration and future administrations 
can feel this is an appropriate way to operate. It is one of 
the reasons that we have been communicating with Carolyn 
Lerner. It is one of the reasons that we want her input, 
because in the past, she issued a scathing report finding that 
under both President Bush and in an ongoing sense through 2011, 
the administrations of those two Presidents were using an 
office that was inherently flawed. And that is what we are 
making sure we look at before this goes much longer.
    Mr. Cummings. Will the gentleman yield?
    Chairman Issa. Thank you. I will.
    Mr. Cummings. And then I will just have one or two more 
questions. Mr. Chairman, you know, when I read the letter that 
you wrote yesterday, I think it was, there were two new issues 
that came up with regard to the President going on trips, 
official trips and then doing some campaigning, if I remember 
correctly, and I had not seen those allegations before. The 
reason why I raise this is because----
    Chairman Issa. And, Mr. Cummings, if you could yield.
    Mr. Cummings. Sure.
    Chairman Issa. It is not an allegation. It is an 
observation.
    Mr. Cummings. Okay.
    Chairman Issa. All Presidents do both, and this office's 
coordination is a very simple question of it. So I appreciate 
that.
    Mr. Cummings. And I guess what I am concerned about is--
well, two things. One, it seems as if--I just wonder when the 
questions end. In other words, this was a question that was 
presented yesterday, and Mr. Simas's--I am sorry, Mr. 
Eggleston's response was, Well, you know, we will continue to 
work with you. And it seems like--I am just wondering whether 
there is a constant movement of the goalposts.
    And the public needs to know that our staffs met with the 
White House for 75 minutes, and they answered just about every 
question, they--they left the meeting probably thinking they 
did, and then some other questions came up. And I know that 
things like that happen, but I guess, at some point, where does 
it end, but more significantly, you understand the concern of 
the White House. And it is not just this White House. There 
will be future folks who occupy the White House who will be of 
the Republican party, and we may be up in heaven somewhere, 
but----
    Somebody laughed, but anyway.
    Chairman Issa. What you are implying is this isn't heaven?
    Mr. Cummings. But I guess my concern is the White House's 
concern, and I think it would be under a Republican, too, there 
are certain advisors that they want to make sure that they have 
this freedom to talk to----
    Chairman Issa. And I want to bring this to a close----
    Mr. Cummings. Sure.
    Chairman Issa. --and we will bring up the next part, but 
the gentleman's point is a good one. I want to make sure that 
we come to an understanding. Oversight is ongoing, and we are 
not looking to ask about, on a trip, what did the President say 
or the communication. We understand the nature of that advice. 
And we are not asking why did--why did you decide, in 
consultation with the President, to have the President do X and 
Y?
    The organizational questions, which included the one in the 
letter, are, how do you decide? What is the system? And how do 
we know, again, that dollars paid to Federal employees are, in 
fact, even though they are clearly supporting campaign efforts, 
that they are absolutely necessary and the best possible use of 
the President's time and money and the people's time and money, 
simply because we have a unique situation with the President, 
that we don't want him going down to the Democratic National 
Committee for briefings. We don't want the First Lady out and 
about or having to go back and forth to the residence. These 
are accommodations unique, in that we are using taxpayer 
dollars in support of campaigns, but only because of the unique 
security considerations and so on of the President.
    So, for that reason, the process is in fact important, but 
we are not moving the goalposts, to be honest. We have a lot of 
questions. I don't know that all have been asked. And I am 
absolutely positive that if we go through this process, many of 
your members will have additional questions, and we would want 
to make sure that all relevant questions, all questions related 
to the American people's taxpayer dollars and the necessity of 
this are answered. So I look forward to eventually having that 
dialogue.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Issa. For all involved, this meeting, this 
committee stands in recess.
    Mr. Cummings. It is estimated that we will come back at 
10:15, folks, 10:15.
    [Whereupon, at 9:28 a.m., the committee was recessed.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC] [TIFF OMITTED] T9594.001

[GRAPHIC] [TIFF OMITTED] T9594.002

[GRAPHIC] [TIFF OMITTED] T9594.003

[GRAPHIC] [TIFF OMITTED] T9594.004

[GRAPHIC] [TIFF OMITTED] T9594.005

[GRAPHIC] [TIFF OMITTED] T9594.006

[GRAPHIC] [TIFF OMITTED] T9594.007

[GRAPHIC] [TIFF OMITTED] T9594.008

[GRAPHIC] [TIFF OMITTED] T9594.009

[GRAPHIC] [TIFF OMITTED] T9594.010

[GRAPHIC] [TIFF OMITTED] T9594.011

[GRAPHIC] [TIFF OMITTED] T9594.012

[GRAPHIC] [TIFF OMITTED] T9594.013

[GRAPHIC] [TIFF OMITTED] T9594.014

[GRAPHIC] [TIFF OMITTED] T9594.015

[GRAPHIC] [TIFF OMITTED] T9594.016

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
